                                 CLOSEOUT FOR M94120044



          On ~ecember          1994, Dr.

  informed OIG that a panel reviewer, D
  at
                                      D
                                      1r-
                                                         program director in hte-
                                                  Section within the Directorate for

                                                                                         - m
                                                              the complainant and faculty member
                    University, had alleged that a PI, the subject, applying to the




                   -
1-1                               (the program) had made a false statement in the resume
  accompanying his proposal. The subject's,,)-                  propos-i                  entitled




          The complainant alleged that the subject had failed to list his prior tenure-track
   appointment at                  University (the other institution) in his resume. The program
   director explained that one of the eligibility criteria for this new NSF program was that applicants
   had to be in their initial &I-time, tenure-track or equivalent, academic appointments. Allegedly
   the subject was in his second &U-time, tenure-track appointment. OIG found that, prior to the
   proposal which is at issue in this case, the subject had submitted ten proposals to NSF, only one
   of which received an award. The resumes the subject submitted with these ten proposals all
   contained a description of his position at the other institution.

            In response to 016's request for information the subject said that he had held an
   appointment at the other institution. He explained that he did not consider this previous
   appointment to be tenure-track because, although he had resigned nine months after accepting the
   appointment, it was also two days before his tenure-track probation period began. At this
   institution, faculty that are hired during the academic year, as the subject was, begin their tenure-
   track probation period at the beginning of the next academic year. He said he had not mentioned
   this appointment because he felt it would confuse reviewers and it was not otherwise noteworthy.
   An official at the institution confirmed the subject's statements. He said the subject was hired as a
   tenure-track faculty member but that his tenure-track probation period had not begun when he
   resigned. He said that performance prior to the beginning of the tenure-track probation period
   was considered by tenure review committees, but it was considered in the same light as
   accomplishments prior to employment at the institution.

            The chairperson of the NSF program's coordinating committee told OIG that, for the
   program's second year of soliciting applications, the eligibility criteria had been changed to permit
   faculty members who were in their first or second &U-time, tenure-track positions to apply. One
   of the reasons the change had been made was because the original criteria were considered too
   restrictive because they did not allow for young faculty to change jobs once to take advantage of
   a better position at another institution. The chairperson noted that the program announcement
   under which the subject had applied and the newly revised one explicitly stated that applicants
   could request written exception fiom the eligibility criteria fiom their program officers. The
   chairperson said that the program had evaluated approximately 1700 proposals in the first year,
                                           Page 1 of 2                               M94-44
                              CLOSEOUT FOR M94120044
when the subject had submitted his proposal, and had granted 100 exceptions of which
approximately 10 were for circumstances similar to the subject's.

        OIG concluded that the subject's prior appointment did not exclude him fiom
consideration by the NSF program. If he had requested an exception he probably would have
received one. There was no need for the subject to alter his resume to avoid cofising reviewers.
The subject exhibited poor judgment when he failed to include mention of that appointment in the
resume he submitted with his proposal. Because of the unusual circumstances in this case,
specifically the timing of the other institution's tenure-track probation period and the program's
practice of granting exceptions for individuals in circumstances similar to the subject's, the
subject's selective reporting of his academic positions was not considered an issue of misconduct
in science.

       This inquiry is closed and no fbrther action will be taken in this case.



cc:    StafF Scientist, Deputy AIG-OversigPlt, AIG-Oversight, IG




                                        Page 2 of 2
